IN THE SUPREME COURT OF THE UNITED STATES
No. 20-1500
MACHIAVELLIFARRAKHAN SIBERIUS
Plaintiff - Petitioner,
v.
AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.; PRESSLEY RIDGE;
WEST VIRGINIA DEPARTMENT OF EDUCATION, et al.
Defendants - Respondents,
CERTIFICATE OF SERVICE
A true and correct copy by the plaintiffipetitioner, Machiavelli Farrakhan
Siberius, was served on August 10th, 2021, using the United States Postal Service. I hereby certify
that I mailed the foregoing paper, the “Petition for Writ of Certiorari,” with the Clerk of the United
States Supreme Court. The defendants/respondents on the service list will receive a copy of the
filing from the United States Postal Service.

Plaintiff—Petitioner, Pro Se:
Date
MACHIAVELLI F. SIBERIUS, Pro Se
P.O. Box 1162
Parkersburg, WV 26102
Telephone: (304) 210-6097
MFSiberius@hotmail.com

Subscribed and sworn to before

This__ /a.

day of (\ ay id

20 c2-/

in

<

a-

(NOTARY PUBLIC)
My commission Expires (O

j IU | S.02.H

OFFICIAL SEAL
NOTARY PUBLIC
1
STATE OF WEST VIRGINIA
Lydia J. Wren
Parkersburg & Wood County Public Library
3100 Emerson Ave. Parkersburg, WV 26104-2414
My Commission Expires October 16,2024
xa

Service List

AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.
Attorney: Allison B. Williams & Larry J. Rector
Mail: 400 White Oaks Boulevard,
Bridgeport, WV 26330
WEST VIRGINIA DEPARTMENT OF EDUCATION
Attorney: J. Victor Flanagan & Katie L. Hicklin Luyster
Mail: 901 Quarrier Street, James Mark Building,
Charleston, WV 25301
PRESSLEY RIDGE
Attorney: Ryan A. Zeli & Dara A. DeCourcy
Mail: 310 Grant Street, Suite 3000,
Pittsburgh, PA 15219

